                                  EVALUATION




 BUREAU OF RECLAMATION’S
 SAFETY OF DAMS:
 EMERGENCY PREPAREDNESS




Report No.: WR-EV-BOR-0007-2011    February 2012
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR

                                                                                  FEB ,2 7 2012
Memorandum

To:            Michael L. Connor
               Commissioner, Bureau

From:          Mary L. Kendall
               Acting Inspector Genera

Subject:       Final Evaluation Report- Bureau of Reclamation' s Safety of Dams:
               Emergency Preparedness
               Report No. WR-EV-BOR-0007-2011

        This memorandum transmits the results of our evaluation of the Bureau of Reclamation' s
(USBR) emergency preparedness at its National Critical Infrastructure (NCI) and Major Mission
Critical (MMC) dams.

        USBR appears committed to emergency action planning to help save lives and reduce
property damage in the areas impacted by potential NCI or MMC dam failure. This was
evidenced by the emergency action plans in place for all the high hazard dams we visited. While
these areas did have emergency action plans, we still found areas where USBR needs to
strengthen internal controls for these plans. We include five recommendations in our report that,
if implemented, will help to improve USBR' s emergency management program.

       Based on USBR' s January 17, 2012 response to the draft report, we consider all five
recommendations to be resolved but not implemented. We will refer these recommendations to
the Assistant Secretary for Policy, Management and Budget to track implementation.

        The legislation, as amended, creating the Office of Inspector General requires that we
report to Congress semiannually on all audit report issues, actions taken to implement our
recommendations, and recommendations that have not been implemented.

     A response to this report is not required. If you have any questions regarding this
memorandum or the subject report, please do not hesitate to contact me at 202-208-5745.




                               Office of Inspector Gener al   I Washington , DC
Table of Contents
Results in Brief ....................................................................................................... 1

Introduction ............................................................................................................. 2
   Objective ............................................................................................................. 2
   Background ......................................................................................................... 2
      Emergency Action Plans ................................................................................. 2
      EAP Exercises and Frequency......................................................................... 3

Findings................................................................................................................... 5
   Recommended Corrective Actions Not Documented ......................................... 5
   Required Frequency of Exercise Not Followed .................................................. 6
   EAP Reviews and Communication Drills Not Consistently Documented ......... 7
   Verification of EAP Listed Equipment and Materials Not Documented ............ 7
   Emergency Preparedness Training Requirements Not Clear .............................. 8

Conclusion and Recommendations ......................................................................... 9
   Conclusion........................................................................................................... 9
   Recommendations ............................................................................................... 9

Appendix 1: Scope and Methodology................................................................... 11
   Scope ................................................................................................................. 11
   Methodology ..................................................................................................... 11

Appendix 2: USBR Response ............................................................................... 12

Appendix 3: Status of Recommendations ............................................................. 16
Results in Brief
The Bureau of Reclamation (USBR) manages 477 dams and dikes throughout the
Western United States. Five of these dams are classified as National Critical
Infrastructure (NCI) and 16 are classified as Major Mission Critical (MMC).
Because destruction or failure of NCI and MMC facilities would be devastating to
the public, we conducted an evaluation to determine the emergency preparedness
of these dams.

As a part of its dam safety program, USBR requires emergency action plans
(EAP) at its high and significant hazard dams. We found that USBR has EAPs in
place for the high hazard dams we visited. All of the EAPs we reviewed met the
Federal Emergency Management Agency (FEMA) guidelines and USBR
directives. While USBR has EAPs in place, we found areas in which USBR has
an opportunity to strengthen controls.

Specifically, recommended corrective actions resulting from deficiencies
identified during EAP exercises, annual EAP reviews, and communication drills
are not consistently documented. In addition, we found one NCI dam that did not
meet USBR’s directives for frequency of EAP exercises. Also, while we
acknowledge USBR has no requirement for documenting verification of
equipment and materials mentioned in the EAP, we believe this to be an important
component of emergency preparedness. Finally, the type of employee emergency
training required by USBR is inconsistent.

USBR appears committed to continually improving its existing emergency
management procedures. For example, USBR has begun addressing the issues
identified in our review. Namely, USBR’s Program and Emergency Management
Office in Security, Safety, and Law Enforcement plans to conduct annual reviews
of EAPs and associated documents on a statistical sample basis for a pre-
determined number of dams. The reviews will confirm that —
    • Annual reviews and updates of the EAPs and associated communication
        directories have been conducted, certified as completed, and documented
        appropriately;
    • EAP exercises and recommended corrective actions contained in the after
        action reports have been cataloged in the Dam Safety Information System;
    • Adequate training has been provided to emergency management team
        members per applicable requirements of the Department Manual; and
    • EAP tabletop and functional exercises have been completed and
        documented in a timely manner.

The areas we have identified should help USBR meet its commitment.




                                                                                 1
Introduction
Objective
Our objective was to review the emergency preparedness of the Bureau of
Reclamation’s (USBR) National Critical Infrastructure (NCI) and Major Mission
Critical (MMC) dams to determine whether they have up-to-date emergency plans
and capabilities.

Background
USBR manages 477 dams and dikes located throughout the 17 Western United
States. USBR classifies 5 dams as NCI and 16 dams as MMC. 1 USBR regards
NCI dams as facilities so vital to the nation that the incapacity or destruction of
such facilities would have a devastating impact on the United States economy,
security, and public health or safety. It considers its five NCI dams as its most
important, critical facilities.

MMC dams are characterized by large, multi-purpose water project facilities and
high downstream hazards. MMC facilities are regarded as vital to a specific
region of the United States. The inoperability or destruction of these facilities
would have a devastating impact on regional security, as well as the region’s
economy and public health and safety. USBR also classifies the 5 NCI and 2
MMC dams we reviewed as high hazard dams, meaning that dam failure could
lead to the loss of one or more lives.
The goal of USBR’s Dam Safety Program is “to ensure that Reclamation water
storage facilities do not present unreasonable risks to the public, public safety,
property, and/or environment.” Emergency management programs are
implemented at all high and significant hazard dams that could present such risks
to the public and environment. USBR refers to its emergency management
program as a system or group of actions by which mitigation, preparedness,
response, and recovery activities are undertaken to save lives and protect property
impacted by emergency incidents at its facilities. USBR’s emergency
management program includes emergency action plans (EAPs), inundation
mapping, emergency exercises, personnel training, downstream warning and
evacuation, and a dam safety information database.


Emergency Action Plans
EAPs are formal, living documents. They identify potential emergency conditions
at a dam and specify actions for dam operating personnel to follow during
emergency situations or unusual occurrences. The actions specified are aimed at
minimizing property damage and loss of life and providing proper notification to
downstream authorities. USBR’s directives and standards for emergency
management (FAC 01-01) state that EAPs are to be reviewed annually and
1
    For the purposes of this report, the names of the NCI and MMC dams are not disclosed for security reasons.


                                                                                                            2
updated in a timely manner. The reviews are to include the specific procedures in
the EAPs, as well as the names, telephone numbers, and other information
contained in the dams’ communications directory. In addition, EAP exercises are
performed to promote emergency preparedness, test or evaluate emergency action
plans, train personnel in emergency management duties, and demonstrate
operational and response capabilities.

EAP Exercises and Frequency
USBR’s directives and standards require each exercise to be documented in an
after action report. These reports must contain identified strengths, deficiencies,
and recommended corrective actions, including a planned course of action to
implement and track the recommended actions.

The five components or levels for exercising an EAP are:

   1. Orientation Seminar: An activity designed to introduce, discuss, and
      update emergency planning documents and organization structure. The
      purpose is to familiarize key personnel with the emergency procedures and
      their responsibilities. The seminars involve all personnel with a role in the
      EAP, problem, or procedure.

   2. Drill: An activity designed to evaluate a single emergency response
      function. This involves an actual field response, such as making contacts
      to check the information included in the communication directory (also
      referred to as a communications drill).

   3. Tabletop Exercise: An activity involving discussions of actions to be taken
      on described emergency situations. A tabletop exercise is done without
      time constraints, which allows the participants to practice emergency
      situation problem solving, evaluate plans and procedures, and resolve
      questions of coordination and assignment of responsibilities. A series of
      messages are issued to participants in the exercise, and they respond
      verbally to the simulated incident in a non-stressful atmosphere. This
      exercise involves management, key bureau staff, and appropriate
      personnel from outside organizations.

   4. Functional Exercise: An activity in which participants respond in a
      coordinated manner to a timed, simulated incident that closely parallels a
      real operation event. This exercise is generally conducted in an emergency
      operations center or Incident Command Post. Written or verbal messages
      are passed to the participants by telephone, radio, fax, computer, or other
      method of communication. The exercise uses information such as
      emergency plans, maps, charts, and other information available in a real
      event and creates stress by increasing the frequency of messages, intensity
      of activity, and complexity of decisions and/or requirements for




                                                                                      3
          coordination. Participants include management, key bureau staff, and
          appropriate personnel from outside organizations.

     5. Full-Scale Exercise: An activity in which emergency preparedness
        officials respond in a coordinated manner to a timed, simulated incident.
        The activity includes the mobilization of field personnel and resources,
        and the actual movement of emergency workers, equipment, and resources
        required to demonstrate coordination and response capability. This
        exercise is intended to evaluate the entire emergency organization or its
        major parts in an interactive manner over a substantial period of time.
At a minimum, FAC 01-01 states that the frequency of the exercises shall be as
follows:
     1. Each dam will have a communications drill annually.
     2. Each high and significant 2 hazard dam will have a tabletop exercise every
        3 years.
     3. Each high hazard dam will have a functional exercise every 6 years.
     4. An actual emergency event may satisfy this exercise requirement. 3
FAC 01-01 does not state a minimum requirement for performing full-scale
exercises. Orientation seminars are generally required to be performed prior to
conducting any tabletop exercise.




2
  A significant hazard dam has no potential for loss of life but there is the likelihood for significant
economical damages in the event of failure.
3
  Credit for an actual emergency event will be given in lieu of the required exercises for those offices which
can document the applicable actions listed in the emergency action plan and/or local emergency operations
plan were used in the actual emergency event.


                                                                                                                 4
Findings
Recommended Corrective Actions Not
Documented
Recommended corrective actions are not consistently documented in after action
reports and are not consistently entered into the Dam Safety Information System
(DSIS). 4 For example, we reviewed 12 EAP after action reports and found that
four did not have recommendations (Figure 1). Two of these four after action
reports contained exercise participant suggestions 5 for improving the NCI Dam’s
EAP and other emergency management system components, such as training. We
noted, however, that these suggested recommendations were not formalized nor
was the feasibility or appropriateness of formalizing these suggested
recommendations discussed in the after action reports. USBR’s “Emergency
Planning and Exercise Guidelines” state: “Recommendations for the future are the
whole reason for doing the exercise. They are vital to building an improved
emergency management system for the future.”

We also found that, in the eight after action reports that had recommendations,
only two reports included a planned course of action 6 to implement and track the
recommended corrective actions. Further, a USBR official told us that while
recommended corrective actions are to be entered into DSIS for implementation
tracking and follow-up, it is not occurring consistently.


 Recommendation

      1. Ensure that recommended corrective actions resulting from EAP
         exercises are consistently documented in the after action reports and
         entered into the DSIS for implementation tracking and follow-up.




4
  The DSIS is two of the four components of the Bureau of Reclamation Safety and Security Information
Systems (BORSSIS). BORSSIS is an information technology system that provides automated mechanisms
that help ensure the safety of USBR’s dams by supporting activities related to the safety of operating and
maintaining these facilities as well as the safety of USBR personnel, visitors, and the downstream public. The
DSIS components allow USBR tracking of specific dam-related data and access of dam safety related reports.
5
  The exercise participant suggestions and comments were provided in the participant evaluation forms
attached to the after action reports.
6
  The planned course of action is documented in an improvement plan.


                                                                                                            5
                         USBR’s Emergency Action Plan Exercises

                              Exercise                                                 Improvement
    Dam                        Type            Year Recommendations                        Plan
    NCI Dam 1               Tabletop           2007                                         
    NCI Dam 1               Functional         2009                                         X
    NCI Dam 2               Functional         2008        X                                 X
    NCI Dam 2               Tabletop           2005                                         X
    NCI Dam 3               Tabletop           2007                                         X
    NCI Dam 4               Functional         2008        X                                 X
    NCI Dam 4               Tabletop           2006        X                                 X
    NCI Dam 5               Functional         2002                                         X
    NCI Dam 5               Functional         2007                                         X

    MMC Dams
    1&2                     Tabletop           2003                   X                            X
    MMC Dam 2               Tabletop           2005                                               X
                            Full Scale,
    MMC Dams                Tabletop, &
                                                                                                       7
    1&2                     Functional         2008                                               

The X indicates that the item was not in the after action report. The indicates that the
item was in the after action report.

Figure 1. This table shows emergency action plan exercise data for NCI and MMC dams
reviewed.

Required Frequency of Exercise Not Followed
One of USBR’s NCI dams has not exercised its EAP since August 2007. USBR’s
directives and standards for performing an EAP tabletop exercise is every 3 years.
FEMA’s “Federal Guidelines for Dam Safety, Emergency Action Planning for
Dam Owners,” points out that “If the plan is not exercised (verified), those
involved in its implementation may become unfamiliar with their roles and
responsibilities, particularly if emergency response personnel change.” In
response to an OIG-issued Notice of Potential Findings and Recommendations
(NPFR) dated August 4, 2011, a regional office official informed us that the
region believed that four events met the intent of FAC 01-01. After reviewing the
after action reports for these four events, we determined that the exercises were
dam security related, and therefore did not count as an EAP exercise. We were
informed that a joint tabletop exercise was executed with another NCI dam in
October 2011.

7
    A local county wrote the after action report, so USBR is not listed in the improvement plan.


                                                                                                           6
 Recommendation

    2. Verify that NCI and MMC dams’ EAPs are exercised and documented
       as required in USBR’s directives and standards.



EAP Reviews and Communication Drills Not
Consistently Documented
USBR does not document the annual EAP reviews and communication drills
consistently. For example, at one NCI dam, personnel use certifications to
document the annual EAP review. At two other NCI dams, personnel use work
orders for documentation. We noted the work orders for one of these dams are for
the “Annual check of phone numbers on [the Dam’s] call-out list for the
Emergency Action Plan…” There is no indication on the work orders that an
actual review of the EAP was included. At a fourth NCI dam, we were told that
“the EAP is reviewed all the time and is a living document.” No documentation,
such as certifications or work orders, however, was evidenced to support that
annual EAP reviews and communication drills are performed.

Although USBR’s directives and standards do not specifically state that
documentation of the annual EAP and communications directory reviews is
required, we believe consistent documentation is essential to show that annual
EAP reviews and communication drills are being performed as required. As stated
in FEMA’s “Federal Guidelines for Dam Safety,”

       After the EAP has been developed, approved, and distributed, the
       job is not done. Without periodic maintenance, the EAP will
       become out-dated, lose its effectiveness, and no longer be
       workable…If the plan is not updated, the information contained in
       it may become outdated and useless.

 Recommendation

    3. Establish consistent documentation for annual EAP reviews and
       communication drills.



Verification of EAP Listed Equipment and Materials
Not Documented
There is no documentation verifying the location, existence, and operability of
equipment and materials listed as available in the EAPs. FEMA’s “Federal
Guidelines for Dam Safety” states that one of the basic elements that should be
included in an EAP is an identification of preparedness actions that are to be taken


                                                                                  7
to facilitate response to emergencies. One such preparedness action is to arrange
for the availability of equipment, labor, and materials for use in emergency
situations. In all of the EAPs we reviewed, a list of materials and equipment
available to respond to an emergency event was included. For EAPs with such a
listing, we believe the location, existence, and operability of the equipment and
materials should be annually verified and documented as part of the annual EAP
review. This would ensure the availability and readiness of these resources in the
event of an emergency.

This verification process would be similar to the required inspections that the
Bureau of Ocean Energy Management, Regulation and Enforcement (BOEMRE)
must perform on all equipment listed in an operator’s Oil Spill Response Plan
(OSRP). For third-party equipment listed on an OSRP, operators are accountable
for ensuring that the companies under contract have the required equipment and
that it is operational. BOEMRE’s inspectors selectively inspect the contractors
annually to ensure operator compliance. 8

 Recommendation

      4. As part of the annual EAP reviews, establish a process of confirming
         the location, existence, and operability of equipment and materials
         listed as available in an EAP.


Emergency Preparedness Training Requirements
Not Clear
The type of emergency preparedness training that is required is inconsistent, and
confusion exists as to who should receive such training. USBR’s directives and
standards recommend professional emergency management training for USBR
and operating entity personnel with assigned responsibilities during emergency
operations at dams. A USBR official told us this training requirement is confusing
because it broadly encompasses all dam operating personnel, even those
individuals having only minor or indirect roles during emergency operations at
the dam. USBR is currently updating and rewriting the training requirements for
dam personnel.


 Recommendation

      5. Identify and update training requirements and track training for dam
         personnel to ensure training needs are met.

8
  Office of Inspector General U.S. Department of the Interior A New Horizon Looking to the Future of the
Bureau of Ocean Energy Management, Regulation and Enforcement. Report No: CR-EV-MMS-0015-2010
Issued December 2010.


                                                                                                           8
Conclusion and Recommendations
Conclusion
Overall, USBR is committed to the continual improvement of its existing
emergency management procedures. USBR has EAPs in place for the high hazard
dams we reviewed. All of the EAPs we reviewed met FEMA guidelines and
USBR directives, although controls need to be strengthened to ensure the success
of these EAPs.

USBR has begun addressing the issues identified in our review. Namely, USBR’s
Program and Emergency Management Office in Security, Safety and Law
Enforcement (SSLE) plans to conduct annual reviews of EAPs and associated
documents on a statistical sample basis for a pre-determined number of dams. The
reviews will include confirming that —

   •   Annual reviews and updates of the EAPs and associated communication
       directories have been conducted, certified as completed, and documented
       appropriately;
   •   EAP exercises and recommended corrective actions contained in the after
       action reports have been cataloged in the DSIS;
   •   Adequate training has been provided to emergency management team
       members per applicable requirements of the Department Manual; and
   •   EAP tabletop and functional exercises have been completed and
       documented in a timely manner.

We commend USBR for its ongoing efforts to improve its emergency
management procedures.

Recommendations
   1. Ensure that recommended corrective actions resulting from EAP exercises
      are consistently documented in the after action reports and entered into the
      DSIS for implementation tracking and follow-up.

       Agency Response: USBR concurred with the recommendation. USBR’s
       SSLE directorate is developing an oversight program that ensures
       corrective actions resulting from EAP exercises are consistently
       documented in the after action reports and are entered into the DSIS. The
       SSLE Director is the official responsible for implementing the
       recommendation by December 31, 2012.

       OIG Reply: We consider this recommendation resolved but not
       implemented.

   2. Verify that NCI and MMC dams’ EAPs are exercised and documented as
      required in USBR’s directives and standards.


                                                                                   9
   Agency Response: USBR concurred with the recommendation. The SSLE
   is developing an oversight program that will verify that NCI and MMC
   dams’ EAPs are exercised and documented. The SSLE Director is the
   official responsible for implementing the recommendation by December
   31, 2012.

   OIG Reply: We consider this recommendation resolved but not
   implemented.

3. Establish consistent documentation for annual EAP reviews and
   communication drills.

   Agency Response: USBR concurred with the recommendation. The SSLE
   will issue USBR-wide guidance for documenting annual EAP reviews and
   communication drills. The SSLE Director is the official responsible for
   implementing the recommendation by December 31, 2012.

   OIG Reply: We consider this recommendation resolved but not
   implemented.

4. As part of the annual EAP reviews, establish a process of confirming the
   location, existence, and operability of equipment and materials listed as
   available in an EAP.

   Agency Response: USBR concurred with the recommendation. The SSLE
   will issue USBR-wide guidance for confirming the location, existence,
   and operability of equipment and materials listed as available in an EAP
   during the annual EAP review. The SSLE Director is the official
   responsible for implementing the recommendation by December 31, 2012.

   OIG Reply: We consider this recommendation resolved but not
   implemented.

5. Identify and update training requirements and track training for dam
   personnel to ensure training needs are met.

   Agency Response: USBR concurred with the recommendation. The SSLE
   will issue USBR-wide guidance for identifying and updating training
   requirements. The SSLE will also develop procedures to track training for
   applicable dam personnel. The SSLE Director is the official responsible
   for implementing the recommendation by September 30, 2013.

   OIG Reply: We consider this recommendation resolved but not
   implemented.




                                                                           10
Appendix 1: Scope and Methodology
Scope
We performed our evaluation in accordance with the “Quality Standards for
Inspections,” issued by the Council of the Inspectors General on Integrity and
Efficiency. Our focus was to review the emergency preparedness of USBR’s
National Critical Infrastructure (NCI) and Major Mission Critical (MMC) dams.
Our scope included all 5 of USBR’s NCI dams and 2 of its 16 MMC dams. We
did not verify the existence, location or operability of the equipment and materials
listed in the EAP’s. We believe that the work performed provides a reasonable
basis for our conclusions and recommendations.

Methodology
To accomplish the review, we performed the following work:

   •   Reviewed all laws, rules, and regulations and USBR policies related to
       emergency preparedness as it relates to dam safety;
   •   Interviewed USBR officials regarding emergency preparedness;
   •   Visited four NCI dams and two MMC dams;
   •   Attended two tabletop exercises;
   •   Reviewed Emergency Action Plans (EAPs) and after action reports; and
   •   Interviewed officials from the U.S. Army Corp of Engineers and
       California Department of Water Resources.




                                                                                 11
Appendix 2: USBR Response
USBR’s response to the draft follows on page 13.




                                                   12
                           United States Department of the Interior
                                         BUREAU OF RECLAMATION
                                            Washington , DC 20240


   IN REPLY REFER TO:

      84-27400
      ADM-8.00



                                              MEMORANDUM

      To:          Office of Inspector General
                    Attn: Assistant Inspector Gener~   ~its,            Inspections, and Evaluations

      Through: Anne J. Castle ~
                                    /J     ~~                          JAN 1 7 2012
               Assistant Secretary - Wat and Science

      F~;om:
f\Ct\n~ '"OT
                           ~·
                   Michru;l Connor
                   Commissioner    ~~r
                                     77_ /J..i;}:    __.   f:";J A~J
                                                    ------, fJ
                                                                       06 2012
      Subject: The Bureau of Reclamation' s Response to the Office of Inspector General ' s (OIG)
               Draft Evaluation Report, Bureau of Reclamation 's Safety of Dams: Emergency
               Preparedness, Report No. WR-EV-BOR-0007-2011

      The OIG in its December 13, 2011 draft evaluation report, Bureau of Reclamation 's Safety of
      Dams: Emergency Preparedness, requested that Reclamation inform the OIG of actions taken or
      planned to address the recommendations, as well as target dates and titles of the officials
      responsible for implementation. The requested information is attached.

      If you have any questions or require additional information, please contact Elizabeth
      Cordova-Harrison, Director, Management Services Office, at 303-445-2783.

      Attachment




                                                                                                       13
                                                                                     Attaclunent

  The Bureau ofReclmnation's Response to the Office of Inspector General (OIG) Draft Report
             Bureau of Reclamation's Safety of Dams: Emergency Preparedness
                           Report No. WR-EV-BOR-0007-2011

                                         January 2012

General Con1n1ents: Reclmnation wishes to express gratitude for the OIG's evaluation regarding
en1ergency preparedness at Reclamation's dams and associated recommendations for
improvetnent. The following are Reclan1ation's response to the OIG's recommendations.

Response to OIG Recommendations: As advised in an OIG-issued Notice of Potential Findings
and Recomtnendations (NPFR) dated August 4, 2011, we recommend to USBR the following:

Rec01nmendation 1: Ensure that recommended corrective actions resulting from EAP exercises
are consistently documented in the after action reports and entered into the DSIS for
implementation tracking and follow-up.

       Reclamation's Response: Concur. Reclan1ation's Security, Safety and Law Enforcement
       (SSLE) directorate is developing an oversight progran1 that ensures corrective actions
       resulting frotn Emergency Action Plan (EAP) exercises are consistently documented in
       the after action repotis and are entered into the Dam Safety Information System.

       Responsible Official: David Achterberg, Director, SSLE

       Target hnple1nentation Date: December 31, 2012.

Recon1mendation 2: Verify that NCI and MMC dan1s' EAPs are exercised and documented as
required in USBR's directives and standards.

       Reclan1ation's Response: Concur. SSLE is developing an oversight program that will
       verify that National Critical Infrastructure and Major Mission Critical dams' EAPs are
       exercised and docutnented.

       Responsible Official: David Achterberg, Director, SSLE

       Target hnple1nentation Date: December 31, 2012.

Recon11nendation 3: Establish consistent documentation for mmual EAP reviews and
communication drills.

       Reclamation's Response: Concur. SSLE will issue Reclan1ation-wide guidance for
       docun1enting annual EAP reviews and commtmication drills.




                                                                                                14
       Responsible Official: David Achterberg, Director, SSLE

       Target Implementation Date: December 31, 2012.

Recommendation 4: As part of the annual EAP reviews, establish a process of confirming the
location, existence, and operability of equipment and materials listed as available in an EAP.

       Reclamation's Response: Concur. SSLE will issue Reclamation-wide guidance for
       confirming the location, existence, and operability of equipment and materials listed as
       available in an EAP during the annual EAP review.

       Responsible Official: David Achterberg, Director, SSLE

       Target Implementation Date: December 31, 2012 .

Recomn1endation 5: Identify and update training requiren1ents and track training for dam
personnel to ensure training needs are met.

       Reclamation's Response: Concur. SSLE will issue Reclamation-wide guidance for
       identifying and updating training requirements. SSLE will also develop procedures to
       track training for applicable dam personnel.

       Responsible Official: David Achterberg, Director, SSLE

       Target Implen1entation Date: September 30, 2013.




                                                                                                  15
Appendix 3: Status of
Recommendations
  Recommendations           Status      Required Action

1-5                 Resolved; not    No further response to
                    implemented.     OIG is required. The
                                     recommendations will
                                     be referred to the
                                     Assistant Secretary for
                                     Policy, Management and
                                     Budget for tracking of
                                     implementation.




                                                               16
                                    


            Report Fraud, Waste,                                      
            and Mismanagement
                                       
                  Fraud, waste, and mismanagement in
                  government concern    everyone: Office
                of Inspector General staff, Departmental
                 employees, and the general public. We
                    actively solicit allegations of any
                           and wasteful practices, fraud,
                inefficient
                     and mismanagement related to
               
                 Departmental or Insular Area programs
                                                         
                     and operations.  You can report
                    allegations to us  in several ways.
                                        
                                    
                                    
     By Mail:           U.S. Department of the Interior  
                        Office of Inspector General  
                        Mail Stop 4428 MIB  
                        1849 C Street, NW  
                        Washington, D.C. 20240  
      
     By Phone:          24-Hour Toll Free                               
                                                            800-424-5081
                        Washington Metro Area               202-208-5300
                                                                        
      
     By Fax:            703-487-5402
      
     By Internet:       www.doioig.gov
  
                                                                            
